OFFICE OF THE DISTRICT ATTORNEY, Bronx County

DARCEL D. CLARK
District Attorney

198 East 161st Street
Bronx, New York 10451

Phone (718) 838-7142
Fax (718) 590-6523

December 4, 2020
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Darrell Hemphill v. New York
Case Number 20-637
Dear Mr. Harris
I write to request an extension of time of forty-five days under Rule 30.4, as
modified by the Order of March 19, 2020, to respond to the petition for a writ of certiorari
in Hemphill v. New York (No. 20-637). That would result in a new date for submitting a
response of February 1, 2020. On December 2, 2020, I communicated with Jeffrey Fisher,
Esq., counsel of record for Mr. Hemphill, and he has informed me of his consent to this
request.
The cause of this request is COVID related. The Bronx District Attorney's Office,
in compliance with Citywide restrictions in the City of New York, has continued to limit
in-person appearances for non-essential purposes, and has asked that all work be conducted
remotely whenever feasible to minimize in-person contact. That order has limited my
access to physical files and slowed my response time on a multitude of projects.
Exacerbating the problem, I am a single father of two children, one with special needs, and
both of my children were ordered in November to restart full remote learning.
I thank you for your understanding and your attention to this request.
Sincerely,
Noah Chamoy
Assistant District Attorney
Counsel for Respondent
cc:

Jeffrey L. Fisher, Esq.
Counsel of Record for Petitioner
Professor of Law
Co-Director, Supreme Court Litigation Clinic
Stanford Law School
via e-mail: jlfisher@law.stanford.edu

